                                                                   REPORT TO THE EMPLOYMENT

U.S. Department of Labor                                           AND TRAINING ADMINISTRATION



                     Office of Inspector General—Office of Audit




                                                                   THE CHARLOTTE WORKS REORGANIZED
                                                                   ONE-STOP DELIVERY SYSTEM MET MOST
                                                                   WORKFORCE INVESTMENT ACT
                                                                   REQUIREMENTS




                                                                                       Date Issued:   September 19, 2014
                                                                                    Report Number:      03-14-002-03-390
U.S. Department of Labor                                September 2014
Office of Inspector General                             THE CHARLOTTE WORKS REORGANIZED
Office of Audit                                         ONE-STOP DELIVERY SYSTEM MET MOST
                                                        WORKFORCE INVESTMENT ACT
                                                        REQUIREMENTS
BRIEFLY…                                                WHAT OIG FOUND
Highlights of Report Number 03-14-002-03-390,
                                                        The OIG found that, with few exceptions, Charlotte
issued to the Assistant Secretary for Employment
                                                        Works complied with WIA requirements in
and Training.
                                                        reorganizing its one-stop delivery system and
                                                        establishing an employer website, and properly
WHY READ THE REPORT
                                                        expended WIA Title IB funds. Charlotte Works’
OIG received an anonymous complaint in
                                                        number of staff and related salaries were
September 2011 alleging fraud, waste, and abuse
                                                        reasonable and it properly used WIA funds for
of $1 million of Workforce Investment Act (WIA)
                                                        travel. However, we found that Charlotte Works did
Title IB funds by Charlotte Works Workforce
                                                        not properly update a memorandum of
Development Board related to the reorganization
                                                        understanding (MOU) with its workforce
of its one-stop delivery system. Specifically, the
                                                        development partners, did not obtain approval to
complainant alleged Charlotte Works improperly
                                                        provide WIA services at the new Employer
spent WIA Title IB funds developing a new facility
                                                        Engagement Center, mischarged WIA funds
and website for employers, constructing a new
                                                        related to the Center’s creation, charged costs that
facility within the one-stop delivery system, having
                                                        exceeded the 10 percent WIA limitation for
an inflated number of staff and staff salaries that
                                                        administrative costs, and enrolled fewer
resulted in holding back funds to train participants,
                                                        participants and spent less on training after it
and incurring extravagant travel. For the period
                                                        reorganized its one-stop system. While we
July 1, 2009, through June 30, 2012, Charlotte
                                                        concluded these exceptions did not rise to the
Works reported more than $15 million in
                                                        level of fraud, waste, and abuse of WIA Title IB
expenditures of WIA Title IB funds.
                                                        funds as alleged in the complaint, we identified
                                                        $126,159 in WIA funds that Charlotte Works
WHY OIG CONDUCTED THE AUDIT                             improperly spent.
Our audit objective was to answer the following
question:
                                                        WHAT OIG RECOMMENDED
                                                        The OIG recommended that the Department
   Did Charlotte Works comply with WIA
                                                        require Charlotte Works to update its MOU with
   requirements in reorganizing its one-stop
                                                        partner agencies and procure a contractor to
   delivery system and establishing an employer
                                                        provide WIA services and operate the Employment
   website, and properly expend WIA Title IB
                                                        Engagement Center. We also recommended that
   funds?
                                                        the Department require Charlotte Works to
                                                        implement policies and procedures to address the
READ THE FULL REPORT                                    remaining issues we found, and recover $126,159
To view the report, including the scope,                in WIA funds that were improperly used.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2014/03-       Charlotte Works disagreed with our findings
14-002-03-390.pdf.                                      related to improper expenditures for the renovation
                                                        of the Employer Engagement Center, and stated it
                                                        had identified program costs improperly classified
                                                        as administrative costs that would more than offset
                                                        the amount we identified as exceeding the
                                                        10 percent WIA administrative costs limitation.

                                                        ETA stated it will pursue necessary corrective
                                                        actions through its normal audit resolution
                                                        procedures.
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
                                  Report No. 03-14-002-03-390
                                                      U.S. Department of Labor – Office of Inspector General




Table of Contents

Inspector General’s Report ............................................................................................. 1

Did Charlotte Works comply with WIA requirements in reorganizing its one-stop delivery
system and establishing an employer website, and properly expend WIA Title IB funds?1

RESULTS........................................................................................................................ 3
         A) Charlotte Works complied with WIA and ETA requirements when it
            reorganized its one-stop delivery system and created the employer
            website, except it did not update its MOU and obtain approval to
            provide WIA services. ..................................................................................... 4
         B) Charlotte Works mischarged $59,187 of $258,928 in WIA funds for
            capital leasehold improvements related to the creation of the Employer
            Engagement Center. ....................................................................................... 8
         C) Charlotte Works charged $66,972 in costs that exceeded the ten
            percent WIA limitation for administrative costs. ............................................. 10
         D) The number of participants enrolled and percentage of funds spent on
            training decreased after Charlotte Works reorganized its one-stop
            system. .......................................................................................................... 11
         E) The number of Charlotte Works staff and related salaries were
            reasonable. ................................................................................................... 13
         F) Charlotte Works properly used WIA funds for travel related to
            workforce development purposes. ................................................................ 15

Recommendations ...................................................................................................... 16

Charlotte Works Response ........................................................................................... 17

OIG Conclusion ............................................................................................................. 18

Appendices
         Appendix A Objective, Scope, Methodology, and Criteria .................................. 21
         Appendix B Acronyms ........................................................................................ 25
         Appendix C Charlotte Works Response to Draft Report ..................................... 27
         Appendix D Division of Workforce Solutions Response to Draft Report ............. 29
         Appendix E ETA Response to Draft Report ........................................................ 31
         Appendix F Acknowledgements ......................................................................... 33




                                                                                                     Charlotte Works
                                                                                         Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
                                  Report No. 03-14-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 19, 2014

                              Inspector General’s Report



Ms. Portia Wu
Assistant Secretary for Employment
 and Training
200 Constitution Avenue, NW
Washington, DC 20210

DOL’s Office of Inspector General (OIG) received an anonymous complaint in
September 2011 alleging fraud, waste, and abuse of $1 million of Workforce Investment
Act (WIA) Title IB funds by Charlotte Works Workforce Development Board (WDB)
related to the reorganization of its one-stop delivery system. Specifically, the
complainant alleged Charlotte Works improperly spent WIA Title IB funds on:

   •   employment-generating activities and economic development, such
       as developing a new facility and website for employers in ways
       opposed to WIA regulations;

   •   construction related to a new facility within the one-stop delivery
       system, which violated WIA regulations;

   •   inflated staff and staff salaries of the local board — too much set
       aside for administration — which resulted in holding back funds to
       train participants; and

   •   extravagant travel under the guise of researching one-stop delivery
       systems in other states and paying consultant fees related to the
       reorganization of Charlotte Works’ one-stop delivery system.

Based on our preliminary review of the allegations and the magnitude of funds involved,
we conducted a performance audit to answer the following question:

       Did Charlotte Works comply with WIA requirements in reorganizing its
       one-stop delivery system and establishing an employer website, and
       properly expend WIA Title IB funds?




                                                                                    Charlotte Works
                                              1                         Report No. 03-14-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General


The Workforce Investment Act (WIA) was designed to provide employment and training
services to individuals in finding and qualifying for meaningful employment and to help
employers find the skilled workers they need to compete and succeed in business. The
primary employment and training programs authorized under WIA Title IB are the Adult,
Dislocated Worker, and Youth programs. WIA is administered at the federal level by the
U.S. Department of Labor's (DOL) Employment and Training Administration (ETA). ETA
provides formula-based funding to state governors to operate these programs. In North
Carolina (NC), the state Department of Commerce, Division of Workforce Solutions, is
the state workforce agency (SWA) responsible for administering WIA. The Division of
Workforce Solutions allocates WIA Title IB funds to 23 local Workforce Development
Boards (WDB) throughout the state which are responsible for program policy and
oversight. For the Charlotte-Mecklenburg area, Charlotte Works, formerly known as
Charlotte-Mecklenburg, a not-for-profit public-private partnership entity, is the WDB that
provides policy, planning, and oversight for local workforce development programs and
addresses local workforce issues. 1

WIA requires each local area to establish a one-stop delivery system through which
employment and training services are funded under Title IB and other federal programs.
WIA envisions the one-stop delivery system as a partnership in which Wagner-Peyser
Act labor exchange services are coordinated with other activities provided by other
partners in a one-stop setting. 2 NC’s one-stop delivery system was called the JobLink
Career Center system, which provided services to job seekers and assisted businesses
to connect with skilled workers.

In November 2011, as a result of NC legislation, the NC Employment Security
Commission (ESC), responsible for administering the Wagner-Peyser program, was
merged with the NC Department of Commerce to create the Division of Workforce
Solutions. The purpose was to bring together in one division the responsibility for
administration and oversight of both WIA and Wagner-Peyser programs to provide
efficient services to all customers in the state, and to effectively combine talent to
reinforce job creation and training services delivery. 3

In July 2012, Charlotte Works reorganized its one-stop delivery system when it opened
a new workforce center called the Employer Engagement Center, and no longer


1
  For the Charlotte Works WDB, the City of Charlotte received WIA funds from the SWA through its Consortium
Sub-grant Agreement Number 2040-36. The City of Charlotte contracted with the Charlotte Works WDB to develop
the WIA plan, contract for service providers and one-stop center operators, assume liability for any disallowed costs
associated with grant funds, and complete the required state and federal reports.
2
  Wagner-Peyser services consist of a range of employment-related labor exchange services, some similar to WIA’s
core and intensive services, such as job search assistance, job referral, placement assistance, re-employment
services to Unemployment Insurance claimants, and recruitment services for employers. SWAs cannot use
Wagner-Peyser for training services.
3
  Wagner-Peyser services consist of a range of employment-related labor exchange services, some similar to WIA’s
core and intensive services such as job search assistance, job referral, placement assistance, re-employment
services to Unemployment Insurance (UI) claimants, and recruitment services for employers. SWAs cannot use
Wagner-Peyser for training services.


                                                                                              Charlotte Works
                                                          2                       Report No. 03-14-002-03-390
                                     U.S. Department of Labor – Office of Inspector General


contracted with ESC to provide WIA services at three of ESC’s job center located in the
Charlotte-Mecklenburg area.

The NC Department of Commerce, Division of Workforce Solutions allocates WIA
Title IB funds WDB. Table 1 shows WIA Title IB funds allocated to and spent by
Charlotte Works for program years (PY) 2009 through 2011:

Table 1: Total WIA Title 1B Funds Allocated and Spent by Charlotte Works
                                 PY 2009           PY 2010         PY 2011
Funds Allocated                  $4,035,242        $5,632,612      $6,219,926
Expenditures                     $3,931,672        $5,543,440      $5,839,906

The audit covered Charlotte Works’ administration of WIA Title IB funds for the period
July 1, 2009, through December 31, 2012, unless noted otherwise, as related to the
allegations identified in the complaint. We reviewed Charlotte Works’ reorganized
one-stop delivery system, including implementation of the employer website, to
determine if it complied with WIA and ETA requirements. We also identified WIA funds
used for construction of the new Employer Engagement Center to determine if their use
for this purpose was allowable. Additionally, we analyzed the number and salaries of
Charlotte Works staff that performed administrative and program functions to determine
if both were reasonable. We reviewed a judgmental sample of costs charged to
determine if Charlotte Works properly classified costs as administrative or program and
complied with WIA regulations that limited to 10 percent Title IB program funds that
could be spent on administration. We also performed a comparative analysis of the
number of participants enrolled and WIA funds used for training participants for
PYs 2009 through 2012, to determine if there was any program impact as a result of
Charlotte Works’ one-stop reorganization. Finally, we reviewed travel expenses paid
with WIA funds to determine if the travel and related expenses complied with Charlotte
Works’ travel policy and were for workforce development purposes.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our audit objective, scope, methodology, and criteria are detailed in
Appendix A.


RESULTS

We concluded that, with few exceptions, Charlotte Works complied with WIA
requirements in reorganizing its one-stop delivery system and establishing an employer
website, and properly expended WIA Title IB funds. We found Charlotte Works:


                                                                          Charlotte Works
                                           3                  Report No. 03-14-002-03-390
                                                   U.S. Department of Labor – Office of Inspector General


       A) did not properly update a memorandum of understanding (MOU) with its
          workforce development partners and did not obtain approval to provide
          WIA services at the new Employer Engagement Center;

       B) mischarged WIA funds related to the Employer Engagement Center’s
          creation;

       C) charged costs that exceeded the 10 percent WIA limitation for
          administrative costs;

       D) enrolled fewer participants and spent less on training after it reorganized
          its one-stop system;

       E) had a reasonable number of staff and related salaries; and

       F) properly used WIA funds for travel.

We concluded the exceptions did not rise to the level of fraud, waste, and abuse of WIA
Title IB funds by Charlotte Works, as alleged in the complaint. Together, we identified
$126,159 in WIA funds that Charlotte Works improperly spent according to WIA
requirements. Details of our results follow.


A) Charlotte Works complied with WIA and ETA requirements when it
   reorganized its one-stop delivery system and created the employer website,
   except it did not update its MOU and obtain approval to provide WIA services.

We did not substantiate the allegation that Charlotte Works developed a one-stop
system and website that were employment-generating activities and economic
development in violation of WIA regulations. Both Charlotte Works’ reorganized
one-stop system and website (Employer Website) generally complied with WIA
requirements. However, we determined Charlotte Works did not properly update an
MOU with its workforce development partners and did not obtain approval for its staff to
provide WIA services and operate the Employer Engagement Center. These lapses
occurred because Charlotte Works officials were not aware of the need to update the
MOU and obtain the required approval. An updated MOU is important to ensure
one-stop system partners are aware of their current responsibilities in providing services
to participants. The approval was needed to ensure that Charlotte Works’ function of
providing WIA services was a temporary one and that its primary focus is to provide
one-stop oversight.

WIA and WIA regulations 4 require local boards to bring together employment and
training programs into a one-stop system. Each local area must have at least one


4
    WIA, Sections 121 and 134(c); and WIA regulations, Title 20, Code of Federal Regulations (20 CFR), Part 662.100

                                                                                             Charlotte Works
                                                          4                      Report No. 03-14-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General


comprehensive one-stop center where core services for all mandatory programs 5 are
accessible. 6 Local boards must enter into an MOU with the required one-stop partners.
The MOU covers services the partners are to provide, the system’s funding of services
and operating costs, and the methods for referring individuals between the one-stop
operators and partners. The MOU’s provisions must also include the duration and
procedures for amending the MOU, and may contain any other provisions that are
consistent with WIA Title I and the WIA regulations agreed to by the parties. 7 WIA
allows program partners flexibility in the way they provide services, such as allowing
colocation, electronic linkages, and referrals. WIA also allows local boards to
supplement the comprehensive one-stop centers in such ways as creating: (1) a
network of affiliated sites that can provide one or more partners’ program services at
each site; (2) a network of one-stop partners that are linked physically or technologically
to an affiliated site that ensures individuals are provided information on the availability of
core services in the local area; and (3) specialized centers that address participants’
specific needs, such as those of dislocated workers. 8

WIA regulations do not allow the local board to directly provide core or intensive
services, or be designated or certified as a one-stop operator, unless agreed to by the
chief elected official and the governor. These restrictions also apply to staff of the local
board. 9 This limitation is meant to ensure that the local board serves as the ‘‘board of
directors’’ for the local area, which frees it from day-to-day functions and allows it to
focus on strategic planning, policy development, and system oversight. Permitting staff
of the local board to provide direct services would undermine this principle. 10

Furthermore, WIA does not allow Title IB funds to be spent on employment-generating
activities, economic development, and other similar activities, unless they are directly
related to training for eligible individuals. WIA regulations do allow employer outreach,
including contacts with potential employers for the purpose of placing WIA
participants. 11




5
  According to WIA, Section 121(b)(1), the one-stop partners include programs authorized under Title IB, the
Wagner-Peyser Act, the Adult Education and Literacy title of WIA, the Vocational Rehabilitation Act, Title V of the
Older Americans Act, postsecondary vocational education under the Perkins Act, Trade Adjustment Assistance,
veterans employment services, unemployment compensation laws, Community Service Block Grants, and
employment and training activities carried out by the Department of Housing and Urban Development.
6
  NC’s one-stop delivery system was called the JobLink Career Center system, which provided services to job
seekers and assisted businesses to connect with skilled workers.
7
  WIA regulations, 20 CFR, Part 662.300
8
  WIA Section 134(c)(2)(B)
9
  WIA regulations, 20 CFR, Part 661.310
10
   WIA regulations, 20 CFR, Summary and Explanation, Description of Regulatory Provisions, Subpart C, Local
Governance Provisions
11
   WIA, Section 181(e) and WIA regulations, 20 CFR, Part 661.262

                                                                                              Charlotte Works
                                                           5                      Report No. 03-14-002-03-390
                                              U.S. Department of Labor – Office of Inspector General


The Employer Engagement Center was not an employment-generating or economic
development activity; and the structure of Charlotte Works’ reorganized one-stop
System met WIA requirements.

We concluded Charlotte Works’ Employer Engagement Center was allowed by WIA
regulations because its activities involved employer outreach. We determined the
Employer Engagement Center supplemented one-stop system services by offering
services to job-ready participants, and it did not compete with or duplicate the services
of existing employment centers in the Charlotte area. The structure of Charlotte Works’
reorganized one-stop system met WIA requirements because its employment centers
and main website provided linkages to Wagner-Peyser services provided by the state.

Prior to the one-stop system’s reorganization, Charlotte Works contracted with the NC
ESC 12 to provide WIA services at three of ESC’s job centers in the Charlotte area, and
with two non-profit organizations — Goodwill and Charlotte Enterprise Community
(CEC) — to provide WIA services at two other locations. Charlotte Works officials
explained that the area it served experienced double-digit unemployment during the
recent recession, which resulted in the three ESC offices being flooded with UI claims
and staff having little time to focus on WIA employment or re-employment activities. At
the same time, funding cuts resulted in most partner programs withdrawing services
from the decentralized locations. Charlotte Works realized spreading its limited
resources through five job centers diluted its potential impact in the community and
comingled UI and employment services at the JobLink Career Centers. Charlotte Works
officials said they needed to do a better job of engaging employers and aligning the
labor supply with labor market demand, and that the JobLink Career Center system was
predominantly supply driven and unappealing to the majority of the business
community.

In 2010, Charlotte Works commissioned a study on the effectiveness of its JobLink
Career Center system and started plans to create a new JobLink Career Center system
model intended to align service delivery with private sector standards. During PY 2011,
Charlotte Works started a process to launch a new center called the Employer
Engagement Center, which it opened in July 2012. Charlotte Works ended its contracts
with ESC and CEC, thereby reducing the availability of WIA services to two locations —
the South Boulevard Center, managed under contract by Goodwill Industries; and the
new Employer Engagement Center. The South Boulevard Center provided
comprehensive WIA services, offering access to core services for the partner programs.
The Employer Engagement Center was designed to serve individuals who were job
ready, and was not comprehensive in that it did not provide services such as assistance
with UI claims. However, if UI claimants came to the Employer Engagement Center,
staff referred them to the South Boulevard Center or ESC-operated locations. The
Employer Engagement Center offered a program in which volunteers donated their time
to conduct various workshops such as Resume Coaching, Career Consulting, Mock
Interview, Job Search Teams, Educational Fairs, Wellness Fairs, Networking events,
12
  In November 2011, the NC ESC, responsible for administering the Wagner-Peyser program, was merged with the
NC Department of Commerce to create the Division of Employment Security.

                                                                                       Charlotte Works
                                                      6                    Report No. 03-14-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


and Employer/Recruiter presentations. Most of the volunteers were employers,
recruiters, consultants, and partners from local educational institutions and nonprofit
health and human service agencies.

Charlotte Works’ Employer Website was not an employment-generating or
economic-development activity and did not duplicate NC’s state-operated job website.

We concluded that Charlotte Works’ Employer Website activities consisted of screening
applicants for employers as allowed by WIA, and did not compete or duplicate the
state-operated NC Job Bank and its successor system, NC Job Connector.

In 2011, Charlotte Works collaborated with another local WDB and Siemens Energy to
develop a website recruitment tool where job seekers could express interest in job
openings and training opportunities. Siemens Energy planned to expand its Charlotte
facility and hire more than 800 professional, clerical, and hourly workers. Charlotte
Works officials stated they undertook the responsibility to develop a hiring process for
this expansion because the state-operated NC Job Bank and its successor system, NC
Job Connector, could not be modified to accommodate the hiring process needs for
companies like Siemens Energy. Charlotte Works thought the website could assist its
job counselors who would be overwhelmed as a result of the anticipated availability of
high-paying jobs that would attract applicants from the entire region and flood its
workforce offices. Although developed to assist Siemens Energy in identifying qualified
candidates, the online screening tool could be adapted to meet the needs of other
expanding and relocating businesses.

Charlotte Works did not update its MOU with partner agencies and did not seek
approval to allow its staff to provide WIA services and operate the Employer
Engagement Center.

Charlotte Works did not comply with WIA requirements regarding its MOU with partner
agencies and WIA’s prohibition of Charlotte Works providing services and operating
one-stop centers unless it obtained approval from the local chief elected official and the
governor. Specifically, Charlotte Works did not update its MOU to reflect the changes in
its JobLink Career Center system. Since only 1 of the 5 former locations remained open
as part of the Charlotte Works one-stop system, the only MOU in effect was for the
South Boulevard center operated by Goodwill Industries. This MOU had not been
updated since it was signed on February 9, 2007. Because Charlotte Works made
significant changes to its one-stop JobLink Career Center system, it needed to execute
a new MOU with the required partner(s). This was especially important since the type of
participants to be serviced at each center was different. Because Charlotte Works staff
was providing core and intensive services at the Employer Engagement Center,
Charlotte Works needed the aforementioned approval to ensure the local chief elected
official and governor were aware of and approved the situation.

Regarding the reason why the MOU was not updated, Charlotte Works officials
explained that for the past two years, the NC Department of Commerce, Division of

                                                                           Charlotte Works
                                             7                 Report No. 03-14-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


Workforce Solutions, and the former ESC were in the process of redesigning the
JobLink Career Center system. As a result, the Division of Workforce Solutions put the
one-stop system requirements on hold until new rules could be written. In August 2013,
the Division of Workforce Solutions executed a revised state MOU that outlined the new
expectations of the one-stop system. Charlotte Works officials delayed updating the
MOU until the Division of Workforce Solutions provided the new criteria in the revised
state MOU and said they were in the process of updating the MOU with Goodwill
Industries.

Regarding the reason why approval to provide WIA core and intensive services and
operate the Employer Engagement Center was not obtained, Charlotte Works officials
explained that prior to the one-stop system’s reorganization, they discussed their
reorganization plans in depth with Division of Workforce Solutions officials. The Division
of Workforce Solutions approved the model that was outlined in a study that Charlotte
Works contracted for to review the effectiveness of Charlotte Works’ JobLink Career
Center system and provided a $250,000 special grant to pay for the costs of
reorganizing the one-stop system. Charlotte Works officials stated that during
communications with the Division of Workforce Solutions an approval requirement was
never discussed. Charlotte Works officials stated that after OIG brought the issue to
their attention during the audit, Division of Workforce Solutions officials told them it was
their position that approval was not necessary since they deemed the Employer
Engagement Center to be a pilot project. Therefore, Charlotte Works officials felt the
required approval was not necessary because the Division of Workforce Solutions
provided the grant and approved the reorganization plan, which in their view was the
same as granting approval since it was the governor’s appointed WIA representative.

Although we found Charlotte Works did not obtain the required approval, during our
audit, the City of Charlotte initiated action to procure a contractor to provide WIA
services at the Employer Engagement Center. Charlotte Works officials also said the
Division of Workforce Solutions was in the process of reviewing the Employer
Engagement Center as part of its new state-wide integrated services plan to determine
if it can be certified as a level-one career center (i.e., it would provide veteran services
and Wagner-Peyser and Trade Adjustment Act services).


B) Charlotte Works mischarged $59,187 of $258,928 in WIA funds for capital
   leasehold improvements related to the creation of the Employer Engagement
   Center.

We generally substantiated the allegation that Charlotte Works mischarged WIA funds
for expenses related to construction of the Employer Engagement Center. Specifically,
Charlotte Works used WIA funds for capital leasehold improvements it made to the
leased Employer Engagement Center. ETA guidance allows the use of WIA funds for
capital leasehold improvements if the landlord is unwilling to make them, and provides a
rent adjustment to compensate the lessee for undertaking such costs. The mischarging
of funds occurred because Charlotte Works misinterpreted WIA regulations and ETA

                                                                            Charlotte Works
                                              8                 Report No. 03-14-002-03-390
                                              U.S. Department of Labor – Office of Inspector General


guidance regarding the use of WIA funds for capital leasehold improvements. As a
result, we questioned $59,187 in unallowable program charges.

ETA guidance on property used for ETA program purposes states improvements for
leased properties are the responsibility of the landlord since, by definition, they increase
the value or useful life of the landlord's property. The landlord ordinarily recovers the
cost of the improvement by increasing the rent and the guidance suggested those
grantees' requests for office space needed for grant program purposes should include
the specification of all necessary features, making it unnecessary for grantee/tenants to
make such improvements themselves. ETA guidance also recognizes there will be
situations in which a landlord is unwilling or unable to make needed capital
improvements/renovations to leased premises and it is impractical or infeasible to obtain
alternative space. In such situations, capital expenditures for improvements to rented
premises are allowable as direct costs. Where feasible, grantees should also seek a
rent reduction that reflects the increased value of the landlord's property due to such
grantee-financed capital improvements. 13

Charlotte Works’ expenditures to renovate and equip the leased space included
$258,928 from WIA funds and $90,187 from non-WIA sources, such as the City of
Charlotte. We concluded Charlotte Works’ use of $57,687 in WIA funds for renovation
costs, such as painting and flooring were not allowed according to ETA guidance.
However, we determined the remaining $201,241, which was used for equipment and
furniture, was allowable in accordance with WIA and ETA guidance.

Charlotte Works officials told us that based on their discussions with Division of
Workforce Solutions officials and other WIA experts about the use of WIA funds for
construction, they deemed painting and replacing worn carpet as allowable WIA costs.
Charlotte Works provided a memorandum its landlord prepared during our audit that
stated Charlotte Works decided to make leasehold improvements when it moved into
the leased space, and had it requested the landlord to make them the monthly rent
would have been $1,200 higher. Charlotte Works officials said that based on the life of
the lease, the rent increase would have been $72,000 had the landlord done the work,
which exceeded the $59,187 Charlotte Works paid for painting and flooring.

Charlotte Works officials further explained that when they found space for the Employer
Engagement Center they had significant cash reserves of non-WIA funds from the City
of Charlotte that was budgeted for construction. Had they received any feedback at the
time that the renovations were not allowable under WIA, they would have used the
non-WIA funds. Charlotte Works agreed to reimburse WIA for the unallowable capital
leasehold improvements.

The complaint also alleged Charlotte Works arranged for two WDB members to perform
the construction to renovate the space needed for the Employer Engagement Center,
which we found to be unsubstantiated. Charlotte Works did pay $1,500 to a company in
13
  Training and Employment Guidance Letter (TEGL) No. 7-04,Issues Related to Property Used for ETA Programs,
Section 14, October 20, 2004

                                                                                       Charlotte Works
                                                      9                    Report No. 03-14-002-03-390
                                                U.S. Department of Labor – Office of Inspector General


which a WDB member was employed to assist in obtaining local occupancy permits and
historical commission approval related to renovating the space. According to WIA,
although board members may not provide services in their capacity as a member of the
board, if an individual member of the board is also an employee of a service provider,
then as an employee of that service provider he/she may provide services on behalf of
that entity. 14 However, we took exception to the $1,500 expense since it was related to
the capital leasehold improvements that are not allowed by WIA.


C) Charlotte Works charged $66,972 in costs that exceeded the ten percent WIA
   limitation for administrative costs.

For PYs 2009 through 2011, Charlotte Works did not comply with the WIA regulations
that limited to 10 percent the amount of Title IB program funds that could be used for
administration. This occurred because Charlotte Works did not have policies and
procedures during this period to ensure costs were properly classified. As a result,
Charlotte Works misclassified administrative costs as program costs and did not have a
basis for allocating shared administrative costs to the benefiting function. We
questioned $66,972 in administrative costs that exceeded the WIA 10 percent limit for
PYs 2009 through 2011.

Under WIA, costs are classified as either administrative or program. 15 WIA limits local
area expenditures for administrative purposes under its formula grants to no more than
10 percent of the amount allocated to the local area. 16 Further, WIA regulations17
require that personnel and related non-personnel costs of staff performing both
administrative functions and programmatic activities must be allocated according to the
benefitting cost categories based on documented distributions of actual time worked or
other equitable cost allocation methods. Additionally, the state’s Division of Workforce
Solutions allocated 10 percent of WIA Title IB program funds to its local WDBs for
administrative costs, in compliance with WIA regulations. The local WDBs were
responsible for properly charging costs to ensure they complied with WIA administrative
cost limitations.

For PYs 2009 through 2011, Charlotte Works’ reported costs showed it had expended
the full 10 percent of administrative cost funds that the Division of Workforce Solutions
had allotted to it. At the time of our audit, Charlotte Works had not expended its
allotment of administrative funds for PY 2012. For PYs 2009 through 2012, we reviewed
a judgmental sample of program costs Charlotte Works charged to WIA Title IB
programs to determine if any were misclassified and should have been administrative
costs. Our testing found that Charlotte Works improperly charged $81,470 in
administrative costs to the program cost category. Of this amount, $66,972 was charged


14
   WIA regulations , 20 CFR, Part 652, et al., Summary and Explanation, Part 661, Subpart C
15
   WIA, Section 185(g)
16
   WIA Sections 128(b)(4) and 133(b)
17
   WIA regulations, 20 CFR, Part 667.220(c)(2)

                                                                                           Charlotte Works
                                                       10                      Report No. 03-14-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


for PYs 2009 through 2011, which resulted in costs exceeding the WIA 10 percent
administrative cost limitation.

Charlotte Works’ Accounting Policies, Procedures, and Internal Controls manual in
effect during the audit period did not address the allocation of shared administrative and
program costs to ensure they were accurately charged to the proper cost category.
Charlotte Works officials agreed that prior to the appointment of the current Chief
Financial Officer (CFO) in 2012, costs may not have been properly classified, but they
did not intend to circumvent the WIA administrative cost limitation requirement. The
CFO explained how she found certain occupancy costs were charged fully to either the
program or administrative function, perhaps as an ad hoc allocation method. For
example, rent may have been charged to the administrative cost category and utilities to
the program function. She suggested if our audit testing had included expenses charged
to the administrative cost category, we probably would have found program costs that
were misclassified as administrative. We did find two transactions in PY 2012 for shared
non-personnel costs in which Charlotte Works overcharged the administrative cost
category and undercharged the program cost category by $629. However, we
concluded it was not feasible to expand our testing because it would have required us to
review 100 percent of all costs charged to identify those that were misclassified, and
subsequently determine the correct allocation between administrative and program
costs.

Charlotte Works officials acknowledged the need to properly classify and allocate costs,
which is why they revised the Accounting Policies, Procedures, and Internal Controls
manual in August 2013. The manual contained procedures to ensure non-personnel
costs shared between the administrative and program functions were to be allocated
based on staff ratios. For personnel costs, the new procedures required Charlotte
Works’ President and CFO to annually consult with the directors and managers to
determine where each employee is spending their time. For those employees who
spend time in both administrative and program functions, a determination will be made
as to the average amount of time spent in each area so that the employees’ payroll can
be coded in such a way to allow it to be allocated to administrative and program
functions. The procedures also stated the changes will also be made when an
employee’s job description changes during the year.


D) The number of participants enrolled and percentage of funds spent on training
   decreased after Charlotte Works reorganized its one-stop system.

The number of participants enrolled and the percentage of funds spent on training
decreased after Charlotte Works reorganized its one-stop system. As a result, there
was a risk that persons in the Charlotte area did not receive needed employment and
training services. This occurred because the reorganization reduced the number of
centers from five to two, and Charlotte Works did not have a plan to address the
possible impact on participants’ access to WIA services. However, according to data


                                                                           Charlotte Works
                                           11                  Report No. 03-14-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


Charlotte Works provided after our field work, the number of participants has since
returned to pre-reorganization levels.

We did not find that the enrollment decrease correlated to the allegation that “WIA Title I
funds were held back from training Charlotte citizens and put into inflated salaries of the
staff of the local board [and that] too much of the funds was set aside for
administration.” WIA has no requirements on how much of allotted Title IB funds have to
be spent on training.

We performed a trend analysis of participant enrollment and training cost data for
PYs 2009 through 2012 and concluded the reduction in centers as a result of Charlotte
Works’ reorganized one-stop system had an impact on the number of participants
enrolled and the percentage of funds Charlotte Works spent on training.

Table 2 shows WIA participants enrolled by location for PYs 2009 through 2012.

Table 2: WIA Participant Enrollment by Location
Location                                   PY 2009        PY 2010 PY 2011 PY 2012
ESC East*                                           476          450           291         N/A
ESC Main*                                                          1             1         N/A
ESC Uptown*                                          66           29             1         N/A
Goodwill South Boulevard                            216          189           148         162
CEC*                                                376          343           249         N/A
Charlotte Works WDB                                   1           12            35         331
Youth(1)                                            276          401           453         413
Grand Total                                      1,411         1,425        1,178          906

*Charlotte Works discontinued WIA services at these locations as a result of cancelled contracts.
(1) Different contractors provided Youth Services and the number enrolled were not reported by location.

We attributed the decrease of 247 participants enrolled (17 percent) between PYs 2010
and 2011 to the end of American Recovery and Reinvestment Act (Recovery Act)
funding. Of the approximate $12 million in total Title IB funds that Charlotte Works spent
in PYs 2009 and 2010, $3.9 million represented Recovery Act funding.

We found enrollment decreased by an additional 272 participants (23 percent) between
PYs 2011 and 2012, which we attributed to the reduction in WIA service sites from
6 to 2 as a result of Charlotte Works’ discontinuing contracts with ESC and CEC.
Although enrollment increased at each of the 2 remaining sites, the increases were not
enough to offset the losses that resulted from closing the other sites.

We analyzed the Monthly Financial Status Reports and Requests for Funds for each of
Charlotte Works' contractors that provided WIA services to participants. As shown in
Table 3 below, we calculated the percentage of WIA funds that Charlotte Works used

                                                                                            Charlotte Works
                                                        12                      Report No. 03-14-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General


for training, focusing on 2011 and 2012, and found it decreased from 34 percent in
PY 2011, to 28 percent in PY 2012.

Table 3: Funds Spent for Training for PYs 2009 though 2012
                                         PY 2009           PY 2010           PY 2011            PY 2012
Funds Spent for Training                $2,845,200        $2,059,269         $1,737,415 $1,176,668
Total Funds                             $6,695,296        $4,880,246         $5,177,449 $4,236,970
Percent of Funds for
                                           42%                42%               34%               28%
Training

Charlotte Works officials acknowledged the drop in the number of individuals receiving
intensive services in PY 2012, but said data for PY 2013 through April 30, 2014, 18
showed an increase in intensive services traffic for the WIA Title IB programs to levels
more than those in PY 2011, before the one-stop system reorganization. 19 Charlotte
Works officials agreed the decrease in PY 2012 was not ideal, but they understood the
potential positive outcomes as a result of the new services being offered, such as
workshops, classes, and coaching sessions provided by more than 200 volunteers.
Charlotte Works officials believed the risk of the decrease was well worth the positive
outcomes and that they took reasonable steps such as community outreach, marketing,
and media relations to mitigate any possible public confusion that could have impacted
the reorganization of the one-stop system.


E) The number of Charlotte Works staff and related salaries were reasonable.

Our analysis of Charlotte Works’ staff size and salaries did not find any indication that
they were excessive and caused funds to be withheld from training participants.
Specifically, more than 75 percent of the 24 Charlotte Works’ staff members performed
program functions, and their salaries did not exceed ETA salary and bonus limits. The
remaining staff performed administrative functions. However, we did find that salaries
for 2 staff members exceeded an independent market salary study contracted by
Charlotte Works. This occurred because Charlotte Works did not have controls in place
to document its justification for paying staff a higher salary than what was shown in the
study. As a result, almost $18,000 in WIA funds for these two staff members may have
been put to better use.

Neither WIA nor ETA has staffing level requirements for local workforce agencies.
According to ETA guidance, salary and bonus payments to individuals funded from any



18
   Charlotte Works provided the data after we completed our field work; therefore, we did not validate its accuracy
and support.
19
   The data showed that Charlotte Works enrolled 1,315 participants in WIA Title IB programs as of April 30, 2014, as
compared to 903 participants for the entire PY 2012. Charlotte Works provided the data after our field work; therefore,
we did not validate its accuracy and support.

                                                                                              Charlotte Works
                                                         13                       Report No. 03-14-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


ETA program, grant, or contract is limited to the rate of Federal Executive Level I, which
was $177,000 for 2009, and $179,000 for 2010 through 2012. 20

Our review of Charlotte Works’ staffing found that most of the staff performed
program-related activities. A significant staffing increase occurred in 2012, when
Charlotte Works’ management opted to provide WIA program services at the new
Employer Engagement Center rather than use a contractor; and the ratio of program to
administrative staff also increased. Table 4 provides Charlotte Works’ staff functions
and related salaries for calendar years 2009 through 2012.

Table 4: Analysis of Staffing Levels for Calendar Years 2009 through 2012
                                     2009             2010           2011                2012   Average
 Administrative Staff                  3                3              4                  5.5     3.9
 Program Staff                         9               13              9                 18.5    12.4
 Total Staff                          12               16             13                  24     16.3
 Percentage of
 Administrative Staff                 25%             19%            31%                 23%      24%
 Administrative
 Salaries                           $221,862        $240,211 $326,497               $304,938    $273,377
 Program Salaries                   $428,607        $493,867 $382,217               $710,820    $503,878
 Total                              $650,469        $734,078 $708,714              $1,015,758   $777,255
 Percent of
 Administrative
 Salaries                             34%             32%            46%                 30%      36%

We found that none of Charlotte Works’ staff salary and bonus payments exceeded the
ETA limit of a federal Executive Level I employee. In April 2012, Charlotte Works
retained The Employers Association and Gilreath Consulting, Inc., to assess the
reasonableness and competitiveness of compensation for the organization. Although we
found two employees’ salaries exceeded the levels for comparable positions in the
contractor’s study, the differences did not demonstrate a pattern of abuse as alleged in
the complaint. We considered the salary to be excessive if the difference was more than
10 percent. Table 5 provides details on the comparison of the two employees’ annual
salary to the study’s salary levels for PYs 2009 through 2012.




20
     TEGL No.5-06, Implementing the Salary and Bonus Limitations in Public Law 109-234

                                                                                           Charlotte Works
                                                        14                     Report No. 03-14-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General


Table 5: Comparison of Annual Salary to the Study’s Salary Levels for PYs 2009
         though 2012
          Employee Title              2009                      2010                 2011           2012
 1.       Special Projects Coordinator
          Salary                     $23,425                    $47,818                 $47,501   $52,855
          Study Salary Level         $44,515                    $45,241                 $45,977   $46,772
          Difference               ($21,090)                     $2,577                  $1,524   $6,083
          Percent                      (9)                         5                      3         12
 2.       Chief Financial Officer(a)
          Salary                       Not                    Not                    Not          $86,940
          Study Salary Level         Employed               Employed               Employed       $63,157
                                       With                   With                   With
          Difference                                                                              $23,783
                                     Charlotte              Charlotte              Charlotte
          Percent                     Works                  Works                  Works            27

(a) The Chief Financial Officer worked part time; therefore, the salary was to be annualized.

The complaint also alleged Charlotte Works’ staff salaries needed to be disclosed to
members of the WDB and be made public. Although we found no such requirement
existed, Charlotte Works’ bylaws state that all meetings at which WDB business is
discussed, will be conducted in public and any member of the public desiring to so
participate may do so as long as he or she notifies the chairperson before the meeting
of the subject he/she wishes to address. 21 Charlotte Works did not have any evidence
that it provided staff salaries to the WDB; however, our review of minutes from the June
21, 2012, WDB meeting showed that Charlotte Works’ annual budget was discussed.
Although there was no information on salaries for each staff person, the budget included
a line item for salaries and bonuses by activity — Administration, Adult, Dislocated
Worker, Youth, Special, Incumbent Worker, and On-the-Job Training.

We believe it would be a good business practice for Charlotte Works officials to annually
provide a listing of staff salaries to the WDB’s Executive Committee so there is evidence
that they are aware of compensation levels and have the opportunity to evaluate salary
reasonableness, especially for those levels that exceeded the salaries in the
contractor’s study. Charlotte Works officials told us they would disclose salary
information if a public records request was made by the media or the public, but they
were not aware of any such requests.


F) Charlotte Works properly used WIA funds for travel related to workforce
   development purposes.

We did not substantiate the allegation that Charlotte Works spent WIA funds on
extravagant travel under the guise of research for developing the Employer
21
     WIA, Section 11, Public Notice of Meetings

                                                                                              Charlotte Works
                                                          15                      Report No. 03-14-002-03-390
                                                    U.S. Department of Labor – Office of Inspector General


Engagement Center, including using travel funds to pay consultants fees. Our review of
40 travel vouchers totaling $50,040 for all out-of-town travel 22 by Charlotte Works
employees found the travel was for workforce development purposes, and the costs
incurred were appropriate, reasonable, and supported by documentation. Our review of
Charlotte Works’ travel policies found they were adequate to ensure employees did not
incur extravagant charges by requiring the travel to be for program purposes, the
amounts spent on meals be limited, and standard lodging rates and coach class be
used.

Of the 40 travel vouchers, 7 totaling $5,918 were related to the development of the new
Employer Engagement Center. The vouchers showed 3 Charlotte Works employees
traveled to Washington, Texas, Florida, and New York, all of which were cited in the
complaint. We found Charlotte Works had trip reports describing the activities and
results of these trips, and our analysis of the vouchers showed costs complied with
Charlotte Works’ travel policies and were not extravagant. Our review of the remaining
34 vouchers found all were for workforce investment purposes and complied with
Charlotte Works’ travel policies. We found no vouchers for consultants.


Recommendations

We recommend the Assistant Secretary for Employment and Training direct the NC
Department of Commerce, Division of Workforce Solutions, to require Charlotte Works
to:

1. Update its MOU with partner agencies to reflect the changes in responsibilities for its
   reorganized one-stop system. (Results A)

2. Procure a contractor to provide WIA services and operate the Employment
   Engagement Center. (Results A)

3. Develop and implement policies and procedures to ensure that when new leases are
   negotiated, rent reductions are obtained and documented if there is a need for
   capital improvements to be made to the leased property. (Results B)

4. Develop and implement policies and procedures requiring that the WDB’s Executive
   Committee is annually provided a staff salary listing for evaluation and approval.
   (Results E)

5. Develop and implement policies and procedures to ensure administrative costs are
   properly classified and allocated to the benefiting function so they do not exceed the
   WIA 10 percent limitation. (Results C)




22
     Travel was for the period of July 1, 2009, through October 31, 2012.

                                                                                         Charlotte Works
                                                            16               Report No. 03-14-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


6. Repay $59,187 improperly used for capital leasehold improvements related to
   construction of the Employer Engagement Center. (Results B)

7. Repay $66,972 in administrative costs that exceeded the WIA 10 percent limitation
   for PYs 2009 through 2011. (Results C)

8. Review PY 2012 expenditures to identify misclassified costs between the program
   and administrative cost categories and determine if the WIA administrative cost
   limitation was exceeded and if so, repay the excess amount. (Results C)

9. Develop and implement policies and procedures to ensure staff salaries that exceed
   its market salary study are justified and documented and provided to the Board for
   approval. (Results E)

Charlotte Works Response

The President/CEO of Charlotte Works did not agree with the issues reported in Results
B and C. Concerning Result B, the President/CEO responded that the decision to spend
$59,187 in WIA funds for painting and flooring during the renovation of the Employer
Engagement Center was based on the belief that payment for the leasehold
improvements in the manner made was allowable. He reiterated the statements
Charlotte Works officials made during our audit that they believed this was a more
efficient use of funds than having the landlord perform the work and incurring a rent
increase.

Concerning Result C, the President/CEO Charlotte Works maintained that Charlotte
Works did not spend more than the allowable 10 percent for administrative costs, and
disagreed with the method used by the auditors to review compliance with the WIA
administrative costs limitation. According to Charlotte Works, subsequent to our audit, it
identified $349,533 in program costs it had improperly classified as administrative that
would more than offset the questioned costs we identified. Charlotte Works’ response is
included in its entirety as Appendix C.

North Carolina Division of Workforce Solutions Response

The Assistant Secretary for Workforce, NC Department of Commerce, Division of
Workforce Solutions, responded that the Division of Workforce Solutions is aware of
Charlotte Works officials’ disagreement with two of our findings and is in full support of
their point of view. The Division of Workforce Solutions’ response is included in its
entirety as Appendix D.

ETA Response

The Assistant Secretary for Employment and Training responded that ETA will pursue
necessary corrective actions through its normal audit resolution procedures. ETA’s
response is included in its entirety as Appendix E.

                                                                            Charlotte Works
                                            17                  Report No. 03-14-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


OIG Conclusion

Concerning Charlotte Works’ officials disagreement with the issues in Result B, the
documentation from the landlord was provided after the lease was executed, as a result
of our audit. It is our position that documentation of any rent reduction should have been
part of the lease and made at the time it was executed, in order to timely demonstrate a
decision on the cost effectiveness of the leasehold improvement.

Concerning Charlotte Works’ officials disagreement with the issues in Result C,
documentation supporting Charlotte Works’ internal review of vouchers for
administrative and program costs was provided after our audit fieldwork. Therefore, this
issue should be addressed in the resolution process with ETA.

We appreciate the cooperation and courtesies that Charlotte Works’ personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                           Charlotte Works
                                           18                  Report No. 03-14-002-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                                                  Charlotte Works
                  19                  Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
              20                  Report No. 03-14-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Objective, Scope, Methodology, and Criteria

Objective

Did Charlotte Works comply with WIA requirements in reorganizing its one-stop delivery
system and establishing an employer website, and properly expend WIA Title IB funds?

Scope

The audit covered Charlotte Works’ administration of WIA Title IB funds for the period
July 1, 2009, through December 31, 2012, except as noted under Methodology, as
related to the allegations identified in the complaint. We conducted work at Charlotte
Works in Charlotte, NC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To determine if Charlotte Works’ reorganized one-stop delivery system, including
implementation of an employer website, complied with WIA and ETA requirements, we
interviewed Charlotte Works officials, conducted walkthroughs of how WIA services
were provided, and reviewed Charlotte Works’ WIA plans for PYs 2009 through 2012.
As of the end of our field work in February 2014, Charlotte Works received an extension
from the NC Department of Commerce, Division of Workforce Solutions, for submission
of its 2013 WIA plan that was originally due in March 2013.

The areas we reviewed that were related to the complaint consisted of:

   •   Charlotte Works’ reorganized one-stop delivery system, including the
       implementation of an employer website;

   •   WIA funds totaling $258,928 related to creating the Employer Engagement
       Center;

   •   Charlotte Works’ staffing and salaries, totaling $3,109,019 for calendar years
       2009 through 2012;

   •   Administrative costs charged to WIA programs and controls related to the WIA
       administrative cost limitation;


                                                                           Charlotte Works
                                           21                  Report No. 03-14-002-03-390
                                     U.S. Department of Labor – Office of Inspector General


   •   Comparative analysis of the number of participants Charlotte Works enrolled and
       the percentage of its WIA funds spent on training for the period July 1, 2009,
       through June 30, 2013; and

   •   WIA funds used to pay 40 out-of-state travel vouchers totaling $50,050 for the
       period July 1, 2009, through October 31, 2012.

To determine if WIA funds used for construction of the new Employer Engagement
Center were allowable, we reviewed all related invoices that were charged to WIA
programs. We obtained an understanding of the costs and identified those that were for
capital improvements to the leased space where the Employment Engagement Center
was located.

To determine if Charlotte Works’ staff and salaries were excessive, we identified the
percentage of staff performing program versus administrative functions and compared
salaries and bonuses paid to ETA limits and a salary study contracted by Charlotte
Works.

To determine if Charlotte Works complied with the WIA administrative cost limitation, we
reviewed a judgmental sample of program costs that Charlotte Works charged to WIA
Title IB programs.

To determine how the reorganized one-stop delivery system impacted Charlotte Works’
WIA programs, we performed a comparative analysis of the number of participants
enrolled and the amount of WIA funds Charlotte Works used for the past 3 program
years to train participants.

To determine if travel paid with WIA funds was extravagant under the guise of research
and to pay consultant fees, we selected vouchers for out-of-state travel and determined
the purpose of the travel and whether it was related to workforce issues. We also
reviewed trip reports for travel that was for researching how other local areas operated
their one-stop systems.

Sampling

We used judgmental sampling in our work to determine if Charlotte Works complied with
the WIA administrative cost limitation. We reviewed a sample of high-dollar program
costs Charlotte Works charged to WIA Title IB programs. For the audit period, Charlotte
Works submitted 42 Voucher Requests, which consisted of 660 invoices totaling
$20,235,987. Based on our understanding of Charlotte Works' WIA program, we
identified vendors that provided WIA services and did not include the invoices for these
vendor/contractors in our testing because they represented program costs. The
remaining invoices were for expenses that Charlotte Works incurred to operate WIA,
which Charlotte Works charged to either the administrative or program cost categories.
We sampled from those invoices that were charged to the program cost categories
because of the risk that some of the costs were actually administrative. For the audit

                                                                          Charlotte Works
                                           22                 Report No. 03-14-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


period, we identified 83 such invoices, totaling $1,981,675, and selected the highest
dollar invoice for each quarter, and also used judgment to select additional invoices to
ensure we covered all WIA Title IB programs. Our sample consisted of 19 invoices
containing 294 transactions, totaling $718,949.

Data Reliability

We performed a data reliability assessment to ensure we had complete and accurate
expenditure and performance data. We reconciled expense reports compiled by
Charlotte Works to its general ledger, Voucher Requests, Monthly Financial Status
Reports, and financial reports from the NC Division of Workforce Solutions’ Financial
Management Information System, which was used to accumulate and report WIA
expenses statewide. Where we found differences, we determined their impact on our
audit. We also used participant enrollment data generated from the Division of
Workforce Solutions’ Workforce Plus System. We ensured the data was relevant to our
work and included all the data elements needed for our analysis. We were able to
reconcile data from Workforce Plus to the data provided by Charlotte Works officials.
Overall, we found the financial and enrollment data to be sufficiently reliable for our
work.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing Charlotte Works' policies and procedures
related to maintaining participant files. We confirmed our understanding of these
controls and procedures through interviews and documentation review and analysis.
Our consideration of Charlotte Works' internal controls for maintaining participant files
would not necessarily disclose all matters that might be reportable conditions. Because
of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected.

Criteria

 •   WIA of 1998

 •   20 CFR, Part 652 et. al, August 11, 2000

 •   TEGL 7-04, Issues Related to Property Used for ETA Programs, October 20, 2004

 •   TEGL 5-06, Implementing the Salary and Bonus Limitation in Public Law 109-234,
     August 15, 2006

 •   Charlotte-Mecklenburg WDB, Accounting Policies, Procedures and Internal
     Controls, April 1, 2012


                                                                           Charlotte Works
                                            23                 Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
              24                  Report No. 03-14-002-03-390
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix B
Acronyms

CEC            Charlotte Enterprise Community

CFO            Chief Financial Officer

CFR            Code of Federal Regulations

DOL            U.S. Department of Labor

ESC            Employment Service Commission

ETA            Employment and Training Administration

MOU            Memorandum of Understanding

NC             North Carolina

OIG            Office of Inspector General

PY             Program Year

Recovery Act   American Recovery and Reinvestment Act

SWA            State Workforce Agency

TEGL           Training and Employment Guidance Letter

WDB            Workforce Development Board

WIA            Workforce Investment Act




                                                                     Charlotte Works
                                         25              Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
              26                  Report No. 03-14-002-03-390
                                U.S. Department of Labor – Office of Inspector General



                                                                        Appendix C
Charlotte Works Response to Draft Report




                                                                     Charlotte Works
                                     27                  Report No. 03-14-002-03-390
U.S. Department of Labor – Office of Inspector General




                                     Charlotte Works
     28                  Report No. 03-14-002-03-390
                                 U.S. Department of Labor – Office of Inspector General



                                                                         Appendix D
Division of Workforce Solutions Response to Draft Report




                                                                      Charlotte Works
                                      29                  Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
              30                  Report No. 03-14-002-03-390
                               U.S. Department of Labor – Office of Inspector General


                                                                       Appendix E
ETA Response to Draft Report




                                                                    Charlotte Works
                                    31                  Report No. 03-14-002-03-390
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Charlotte Works
              32                  Report No. 03-14-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


                                                                               Appendix F
Acknowledgements

Key contributors to this report were Michael Hill, Audit Director, Dan Pompilii, Audit
Manager, Sheila Lay, Joe Pomianek, Badara Kamara, Laura Brockway, Carmelle
Paytes, and Christine Allen.




                                                                            Charlotte Works
                                            33                  Report No. 03-14-002-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
